SAMUEL ISSACHAROFF
40 WASHINGTON SQUARE SOUTH
SUITE 411J
NEW YORK, N.Y 10012
212-998-6580
SI13@NYU.EDU
December 22, 2020
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: TransUnion v. Ramirez, No.20-297
By Electronic Filing and Electronic Mail
Dear Mr. Harris:
I will be counsel of record for the Respondent in this case. On behalf of Respondents we consent
to the filing of any amicus brief meeting the Rules of this Court, filed on behalf of either party or on
behalf of neither party.
Thank you for your consideration.

Sincerely,

Samuel Issacharoff
cc:

Paul Clement (by electronic mail)
Andrew Pincus (by electronic mail)
Misha Tseytlin (by electronic mail)

